Nos. 19-431 & 19-454
IN THE

LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,

V.

Petitioners,

COMMONWEALTH OF PENNSYLVANIA, et al.,

Respondents.

DONALD J. TRUMP, PRESIDENT OF
THE UNITED STATES, et al.

v.

Petitioners,

COMMONWEALTH OF PENNSYLVANIA, et al.,

Respondents.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
CERTIFICATE OF SERVICE

I, Matthew T. Martens, a member of the bar of this Court, hereby certify that, on
this 9th day of March, 2020, all parties required to be served have been served copies of
the Brief for Amici Curiae Christian Legal Society and National Association of
Evangelicals in Support of Petitioners in this matter by overnight courier to the
addresses on the attached service list.

MATTHEW T. MARTENS
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., N.W.
Washington, DC 20006
(202) 663-6000
matthew.martens@wilmerhale.com

SERVICE LIST
MARK LEONARD RIENZI
THE BECKET FUND FOR RELIGIOUS LIBERTY

1200 New Hampshire Avenue, NW
Suite 700
Washington, DC 20036
(202) 2497208
mrienzi@becketlaw.org
MICHAELJ. FISCHER
PENNSYLVANIA OFFICE OF ATTORNEY GENERAL

1600 Arch Street, Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov
NOELJ. FRANCISCO
SOLICITOR GENERAL
UNITED STATES DEPARTMENT OFJUSTICE

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

